No. 21-241

 

IN THE

Supreme Court of the United States

MONSANTO COMPANY,

Petitioner,
v.

EDWIN HARDEMAN,
Respondent.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

BRIEF OF THE RETAIL LITIGATION
CENTER, INC. AS AMICUS CURIAE
IN SUPPORT OF PETITIONER.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

8,885 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 4, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
